No.

IN THE
UNITED STATES SUPREME COURT

GERALD A. SANFORD SR.

APPELLANT

V
TENNESSEE DEPARTMENT OF CORRECTION, ET AL.

APPELLEE

PROOF OF SERVICE
GERALD A. SANFORD SR., do swear or declare that on this date, the 25th day of June 2020.
as required by Supreme Court Rule 29,1 have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS AND BRIEF OF APPELLANT to the above proceeding or that
party’s Counsel, and on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Office Of The Clerk
Scott S. Harris
Supreme Court Of The United States
1 First St. N.E.
Washington, D.C. 20543
2I certify, declare, state, and verify under the penalty of perjury that the foregoing is true and correct
and has been forwarded by first-class mail, prepaid postage to; Office Of The Clerk, Scott S. Harris,
Supreme Court Of The United States, 1 First St. N.E., Washington, D.C. 20543.
Executed on this 25th day of June 2020.
Gerald A. Sanford Sr. #418871
2 In accord with 28 U.S.C §1746 and 18 U.S.C. § 1621.
12

